 OFFICE OF INSPECTOR GENERAL
DEPARTMENT OF VETERANS AFFAIRS
  SEMIANNUAL REPORT TO CONGRESS
  OCTOBER 1, 2008-MARCH 31, 2009
                                Message from the Inspector General
 



This Semiannual Report to Congress focuses on the accomplishments
of the VA Ofﬁce of Inspector General (OIG) for the reporting
period from October 1, 2008, through March 31, 2009. Issued in
accordance with the Inspector General Act of 1978, as amended, it
presents results based on OIG strategic goals, which cover the areas
of health care delivery, beneﬁts processing, ﬁnancial management,
procurement practices, and information management.

During this reporting period, OIG issued 102 reports on VA programs
and operations. We recommended systemic improvements and
efﬁciencies in quality of care, accuracy of beneﬁts, ﬁnancial
management, economy in procurement, and information security.
OIG audits, investigations, and other reviews identiﬁed over
$614.4 million in monetary beneﬁts, for a return of $16 for every
dollar expended on OIG oversight. Our criminal investigators have
closed 492 investigations and made 253 arrests for a variety of
crimes including fraud, bribery, embezzlement, identity theft, drug
diversion and illegal distribution, computer crimes, and personal
and property crimes. OIG investigative work also resulted in 298 administrative sanctions. A
criminal information was ﬁled against the former associate director of the Hines, IL, Consolidated Mail
Outpatient Pharmacy, his wife, and her stafﬁng company charging them with conspiracy to commit
wire fraud. Between 2000 and 2007, the defendants and other unindicted co-conspirators used the
company to bill VA for more than $8 million in services.

An OIG audit determined the Veterans Health Administration (VHA) lacks an effective method to track
and report unused appointments, particularly those canceled in advance and those never ﬁlled by
a scheduler. VHA also needs to implement effective processes to reduce patient “no-shows,” which
cost VHA about $564 million annually. Minimizing the number of unused outpatient appointments by
two-thirds could enable Veterans to receive more timely patient care, and allow VHA to make better
use of resources valued at about $76 million annually and $380 million over a 5-year period. OIG also
audited the Veterans Beneﬁts Administration’s (VBA) Systematic Technical Accuracy Review (STAR)
process, a quality assurance program that is a key mechanism for evaluating VA Regional Ofﬁce
performance in processing accurate beneﬁt claims for Veterans and beneﬁciaries. OIG determined
that VBA’s STAR process did not effectively identify and report errors in compensation claim rating
decisions, and that VBA has not fully implemented plans to ensure Veterans receive consistent ratings.
OIG determined that VBA needs to increase accuracy and strengthen controls to ensure Veterans
receive their entitled beneﬁts.

As part of OIG’s oversight of VA health care, the Ofﬁce of Healthcare Inspections analyzed the access
to VA-provided and VA-purchased mental health care by Veterans in Montana and the impact of
peer-to-peer counseling programs. This report pioneered the use of Veterans’ travel times, whether
or not they were users of VA, from their home addresses to providers’ physical service locations.
OIG found that 95 percent of this Veteran population had access to care offering at least medication
management or therapy services within 30 minutes of travel, and over 88 percent of the population
had access within 1 hour of travel to a provider with both services.

The Ofﬁce of Contract Review (OCR) conducted preaward and postaward reviews speciﬁcally designed
to improve VA’s procurement process by protecting the interest of the Government and identifying and
resolving contractor overcharges. OCR issued 46 reports that resulted in savings and dollar recoveries
of $96.4 million.

The American Recovery and Reinvestment Act of 2009, signed into law on February 17, 2009, provided
VA over $1.4 billion for programs, grants, and projects with a twofold mission: to help rejuvenate the
U.S. economy, and to improve the care and services VA provides to America’s deserving heroes, our
Veterans. OIG has developed a proactive oversight strategy to help VA spend tax dollars on economic
recovery in the most effective, economic, and efﬁcient manner.
Semiannual Report to Congress                           October 1, 2008 — March 31, 2009


OIG appreciates the ongoing support we receive from the Secretary, the Deputy Secretary,
and senior management. We look forward to working with VA and Congress to make VA
as effective as possible in meeting the needs of Veterans for quality and timely health care
and beneﬁts.




GEORGE J. OPFER
 

Inspector General
 





2
October 1, 2008 — March 31, 2009                                               VA Ofﬁce of Inspector General



                                   TABLE OF CONTENTS
 


Message from the Inspector General .................................................................... 1


Statistical Highlights ............................................................................................ 5
 


VA and OIG Mission, Organization, and Resources ............................................... 6
 


Health Care Delivery............................................................................................. 7


Beneﬁts Processing ............................................................................................ 14


Financial Management........................................................................................ 17


Procurement Practices ....................................................................................... 19
 


Information Management................................................................................... 22
 


Other Signiﬁcant OIG Activities .......................................................................... 23
 


Appendix A–OIG Reports.................................................................................... 26


Appendix B—Status Of OIG Reports Unimplemented For Over 1 Year................. 35


Appendix C—Inspector General Act Reporting Requirements ............................. 37


Appendix D–Government Contractor Audit Findings ........................................... 39





                                                                                                                    3
Semiannual Report to Congress   October 1, 2008 — March 31, 2009




4

October 1, 2008 — March 31, 2009                                                 VA Ofﬁce of Inspector General



                                    Statistical Highlights
 


DOLLAR IMPACT ($$$ in Millions)
       Better Use of Funds ................................................................................. $380.0
 

       Fines, Penalties, Restitutions, and Civil Judgments ...........................................$8.7
 

       Fugitive Felon Program ............................................................................ $110.1
 

       Savings and Cost Avoidance ...................................................................... $15.7
 

       OIG Dollar Recoveries ..................................................................................$3.5
 

       Contract Review Savings and Dollar Recoveries 

          (including $31.0 million in questioned costs) ............................................ $96.4
 

RETURN ON INVESTMENT
       Dollar Impact ($614.4)/Cost of OIG Operations ($38.9)* ................................. 16:1
 

OTHER IMPACT
       Arrests** ....................................................................................................253
 

       Indictments .................................................................................................134
 

       Criminal Complaints ...................................................................................... 79
 

       Convictions .................................................................................................158
 

       Pretrial Diversions ......................................................................................... 27
 

       Fugitive Felon Apprehensions by Other Agencies Using VA OIG Data .................... 26
 

       Administrative Sanctions ...............................................................................298
 

ACTIVITIES
Reports Issued
     CAP Reviews................................................................................................. 25
 

     Healthcare Inspections ................................................................................... 18 

     Audits............................................................................................................ 9
 

     Administrative Investigations ............................................................................ 1
 

     Contract Reviews .......................................................................................... 46
 

     Counselor to the Inspector General Special Reports ............................................. 3
 

Investigative Cases
     Opened.......................................................................................................512
 

     Closed ........................................................................................................492
 

Healthcare Inspections Activities
      Clinical Consultations ....................................................................................... 2
 

      Administrative Case Closures ............................................................................ 7
 

Hotline Activities
       Cases Opened..............................................................................................474
 

       Cases Closed ...............................................................................................448
 


   * Because inspection work performed by the Ofﬁce of Healthcare Inspections results in
      saving lives and not dollars, their operating costs ($7.3 million) are not included in
      calculating return on investment.
   ** Includes the apprehension of 38 fugitive felons by OIG for this period.




                                                                                                                        5
Semiannual Report to Congress                            October 1, 2008 — March 31, 2009



                VA and OIG Mission, Organization, 

                         and Resources
 

The Department of Veterans Affairs
The Department’s mission is to serve America’s Veterans and their families with dignity
and compassion and to be their principal advocate in ensuring that they receive the care,
support, and recognition earned in service to the Nation. The VA motto comes from
Abraham Lincoln’s second inaugural address, given March 4, 1865, “to care for him who
shall have borne the battle and for his widow and his orphan.”

While most Americans recognize VA as a Government agency, few realize that it is the
second largest Federal employer. For ﬁscal year (FY) 2009, VA has a $93.4 billion budget
and over 278,000 employees serving an estimated 23.4 million living Veterans. To serve
the Nation’s Veterans, VA maintains facilities in every state, the District of Columbia, the
Commonwealth of Puerto Rico, Guam, and the Republic of the Philippines.

VA has three administrations that serve Veterans:

    • Veterans Health Administration (VHA) provides health care.
    • Veterans Beneﬁts Administration (VBA) provides income and readjustment beneﬁts.
    • National Cemetery Administration provides interment and memorial beneﬁts.
For more information, please visit the VA Internet home page at www.va.gov.

VA Ofﬁce of Inspector General
The Ofﬁce of Inspector General (OIG) was administratively established on January 1,
1978, to consolidate audits and investigations into a cohesive, independent organization.
In October 1978, the Inspector General Act, Public Law (P.L.) 95-452, was enacted,
establishing a statutory Inspector General (IG) in VA. It states that the IG is responsible
for: (1) conducting and supervising audits and investigations; (2) recommending policies
designed to promote economy and efﬁciency in the administration of, and to prevent
and detect criminal activity, waste, abuse, and mismanagement in VA programs and
operations; and (3) keeping the Secretary and Congress fully informed about problems
and deﬁciencies in VA programs and operations and the need for corrective action. The IG
has authority to inquire into all VA programs and activities as well as the related activities
of persons or parties performing under grants, contracts, or other agreements. Inherent
in every OIG effort are the principles of quality management and a desire to improve the
way VA operates by helping it become more customer-driven and results-oriented.

OIG, with 522 employees, is organized into three line elements: the Ofﬁces of
Investigations, Audit, and Healthcare Inspections, plus a contract review ofﬁce and
a support element. FY 2009 funding for OIG operations provides $87.8 million from
appropriations. The Ofﬁce of Contract Review, with 25 employees, receives $3.6 million
through a reimbursable agreement with VA for contract review services including preaward
and postaward contract reviews and other pricing reviews of Federal Supply Schedule
contracts. The American Recovery and Reinvestment Act of 2009 provided OIG an
additional $1 million for oversight of the $1.4 billion the Recovery Act provided to VA. In
addition to the Washington, DC, headquarters, OIG has ﬁeld ofﬁces located throughout the
country.

OIG keeps the Secretary and Congress fully and currently informed about issues affecting
VA programs and the opportunities for improvement. In doing so, OIG staff strives to be
leaders and innovators, and to perform their duties fairly, honestly, and with the highest
professional integrity. For more information, please visit the OIG Internet home page at
www.va.gov/oig.




6
October 1, 2008 — March 31, 2009                              VA Ofﬁce of Inspector General



                            Health Care Delivery
 

The health care that VHA provides Veterans is consistently ranked among the best in the
Nation, whether those Veterans are recently returned from Operation Enduring Freedom/
Operation Iraqi Freedom (OEF/OIF) or are Veterans of other periods of service with different
patterns of health care needs. OIG oversight helps VHA maintain a fully functional program
that ensures high-quality patient care and safety, and safeguards against the occurrence of
adverse events.

OFFICE OF HEALTHCARE INSPECTIONS
The OIG Ofﬁce of Healthcare Inspections (OHI) focuses on quality of care issues in VHA
and assesses VHA services. During this reporting period, OHI published 25 cyclical
Combined Assessment Program (CAP) reviews along with 18 hotline reports and national
reviews to evaluate quality of care issues in several VHA medical facilities.
New Study Approach Finds High Percentage of Montana Veterans with
Timely Access to Mental Health Care
At the request of U.S. Senators Jon Tester and Max Baucus, OIG reviewed the quality and
availability of mental health services within the VA Montana Healthcare System (VAMHS).
OIG analyzed the access to VA-provided and VA-purchased mental health care by Veterans
in Montana and the impact of peer-to-peer counseling programs. This report pioneered
the use of Veterans’ travel times from their home addresses, whether or not they were
users of VA, to providers’ physical service locations. Particular access to care challenges
facing VAMHS includes the availability of mental health providers and coping with a
geographically large area with high population dispersion. Despite these challenges,
OIG found that 95 percent of this Veteran population had access to care offering at
least medication management or therapy services within 30 minutes of travel, and over
88 percent of the population had access within 1 hour of travel to a provider with both
services. OIG made recommendations to increase the availability of both evidence-based
post-traumatic stress disorder (PTSD) treatment and specialty substance use treatment for
Montana Veterans.
Improvements Needed in Abdominal Aortic Aneurysm Management
OIG completed a national review to determine whether VHA medical facilities had
implemented abdominal aortic aneurysm (AAA) screening policies and protocols. OIG
recommended that clinicians consider patients’ risk factors for AAA when ordering
abdominal imaging studies and image the aorta, when appropriate. This action could
address and mitigate the concerns expressed by VHA and facility-level managers regarding
the need for additional imaging resources. VHA should also develop a plan for screening
male smokers 65–75 years old.
Review Finds VHA Research Funding Relevant to Veterans’ Needs
The Subcommittee for Military Construction, VA, and Related Agencies, House
Appropriations Committee, requested that OIG complete a review of VHA research to
determine whether efforts are appropriate to the needs of Veterans. OIG determined that
in particular, mental illness, substance abuse, and the common disorders of aging were
the most frequent reasons Veterans utilized VA health care facilities. These conditions
correspond closely to the top three areas of VA research funding: mental health, aging,
and health systems. OIG concluded that appropriated funds for VA research address the
broad spectrum of medical issues facing Veterans, but also noted that VHA’s reporting on
appropriated funds for research could be more transparent and detailed.
No Changes Found in Mental Health Diagnoses at Central Texas
Healthcare System
At the request of James B. Peake, M.D., Secretary of Veterans Affairs, and Members
of Congress, OIG reviewed allegations relating to the diagnosis, treatment, and
compensation of Veterans with PTSD within the Central Texas VA Healthcare System (HCS)
in Temple, TX. The review stemmed from the public release of an interofﬁce e-mail, which
raised questions whether the author was advocating the use of the diagnosis “adjustment
disorder” over other diagnoses, particularly PTSD. OIG’s interviews with recipients
of the e-mail revealed no consistent perception that the e-mail suggested rendering


                                                                                           7
Semiannual Report to Congress                           October 1, 2008 — March 31, 2009


inappropriate diagnoses. The e-mail was written on the author’s initiative, without
instruction from local, regional, or national VA leadership. OIG also found no change in
the appropriateness of clinical diagnoses, Compensation & Pension (C&P) examination
diagnoses, and service connection determinations occurring before and after the e-mail.
Review Finds Failure To Provide Continuity of Care at Salt Lake City
VAMC
OIG reviewed allegations surrounding the care of a patient hospitalized at the VA Medical
Center (VAMC) in Salt Lake City, UT. OIG found that insufﬁcient and fragmented discharge
planning and the failure of a pharmacist to follow written orders caused the patient to
experience a disruption in continuity of care. OIG also found that staff failed to disclose
to the patient’s family the details of a rare complication that ultimately resulted in the
patient’s death. OIG made recommendations to include staff education on the particulars
of rural health care needs and adverse event disclosure, possible administrative action
against the pharmacist, and that the VAMC confer with Regional Counsel regarding
informing the patient’s family about their right to ﬁle tort and beneﬁt claims.
Delays in Mammography, Cardiology, and Colonoscopy Noted at
Muskogee, Oklahoma, VAMC
At the request of Senator James M. Inhofe, OIG conducted an inspection to determine the
validity of allegations surrounding the Jack C. Montgomery VAMC in Muskogee, OK. OIG
concluded that there were issues regarding delays in mammography services, cardiology
consults, and scheduling colonoscopy procedures. Prior to the inspection, management
had already implemented initiatives to correct the issues, and OIG conﬁrmed that the
number of delays to schedule consultations and procedures for these services decreased.
OIG recommended that Regional Counsel review a colonoscopy patient’s case to determine
whether this case meets disclosure requirements; Regional Counsel concluded that it did
not meet disclosure requirements.
Allegations of Quality of Care Issues at a VA HCS Inspected
OIG performed an inspection to determine the validity of an anonymous allegation that
“a number of patients” died while under the care of a board certiﬁed surgeon. OIG
concluded that the system took appropriate actions to ensure patient safety and to review
the provider’s quality of care prior to and during OIG’s review of the allegations. OIG
also recommended that Regional Counsel review all pertinent documentation an actions
taken by the system and determine whether the system had a legal obligation to report
the provider to the National Practitioner’s Database and/or the appropriate state licensing
boards.
Homeless Women Veterans Program Deﬁciencies Found at Atlanta VAMC
A complainant alleged that a female patient committed suicide because of inadequate
care provided by the Homeless Women Veterans Program at the Atlanta, GA, VAMC.
OIG found that the patient received appropriate services and care, and noted that the
medical examiner ruled the cause of death as accidental. While not an allegation, OIG
did identify deﬁciencies speciﬁc to the halfway house contract, inspections, and services,
and recommended revisions to the contract. The VAMC director relocated the Veterans to
another facility that met the requirements of OIG’s recommendations.
Equipment, Communication Problems at Puget Sound, Washington, HCS
OIG reviewed allegations that a patient’s death at the VA Puget Sound, WA, HCS was
caused by equipment failure and not by aspiration pneumonia. While OIG concluded that
a suction machine failed as the patient experienced aspiration shortly before his death,
OIG could not conﬁrm whether the delay in clearing the patient’s airway was a contributing
factor in his death. Although aspiration pneumonia was accurately listed as the cause
of death, staff did not ensure the patient’s family understood the nature of the condition
completely. OIG recommended that suction machine procedures, staff competencies,
and equipment checks be clariﬁed and that staff should comply with VA policy related to
incident reporting and disclosure.
Patient Care Equipment Problems Noted at Las Vegas HCS
At the request of Congressman Bob Filner, Chairman of the House Committee on
Veterans’ Affairs, OIG conducted a review of gastroenterology (GI) services at the VA


8
October 1, 2008 — March 31, 2009 	                           VA Ofﬁce of Inspector General


Southern Nevada HCS in Las Vegas, NV. Generally, GI providers performed their duties
appropriately while they were contractors of the system; however, OIG substantiated that
refurbished scopes were purchased and that a scope broke during a GI procedure. OIG
recommended improvements pertaining to the handling of patient care equipment. OIG
also recommended that employees promptly report Government property loss or damage,
and that regulations pertaining to services provided by non-VA entities are followed.
Hospice Training Lacking for Staff at Maryland HCS
OIG reviewed allegations regarding care received by a terminally ill patient at the VA
Maryland HCS in Baltimore, MD. OIG recommended improved documentation of pain
assessments, along with a recommendation that patients admitted for hospice care receive
that care from a dedicated, trained, interdisciplinary hospice team.
Greater Oversight Needed at Oklahoma City Community Nursing Home
An OIG inspection determined that the Community Nursing Home (CNH) Program at
the Oklahoma City, OK, VAMC failed to comply with policy regarding VHA staff visits
to patients. In addition, the CNH Program needed to perform follow-up visits every
30 days and implement ongoing monitoring of exclusion criteria for nursing facilities. OIG
determined there was a need to establish both a CNH Oversight Committee and a CNH
Review Team.
Credentialing and Privileging Allegations Unfounded at Western New
York HCS
OIG did not substantiate allegations that a surgeon at the VA Western New York HCS in
Buffalo, NY, performed lung surgeries without appropriate credentials and privileges or that
the surgeon’s infection control practices were inadequate. The surgeon had appropriate
credentials and privileges for the surgeries performed, and when surgical procedures
involving the lungs were necessary, a second surgeon who was appropriately credentialed
and privileged either assisted with or performed those procedures. The surgeon followed
established pre-operative prophylactic antibiotic protocols, appropriately consulted
Infectious Disease clinicians, and had an excellent clean wound infection rate.
Allegations of Delayed Access to Care Not Substantiated at Bay Pines,
Florida, VA HCS
OIG conducted a review to evaluate allegations regarding a patient’s experience with
schedulers in the Primary Care Call Center and the Cardiology Clinic at the Bay Pines, FL,
VA HCS. OIG did not substantiate the allegation of delayed access to cardiology care.
While documentation could have been improved, management had already taken action to
resolve the issue. Nevertheless, OIG determined that the complainant should have been
scheduled for a primary care appointment within 30 days of his request. OIG also found
that the schedulers acted in accordance with system policy regarding the patient’s request
for a cardiology appointment.
Summary of OHI CAP Reviews
CAP reviews are part of OIG’s efforts to ensure that quality health care services are
provided to Veterans. CAP reviews provide cyclical oversight of VHA health care facilities;
their purpose is to review selected clinical and administrative operations and to conduct a
fraud and integrity awareness program. During this reporting period, OIG issued 25 CAP
reports, which are listed in Appendix A. Topics reviewed in a facility CAP may vary with
the facility mission, hotline activity, and VHA Ofﬁce of Medical Inspector reports. Topics
generally run for 6-12 months; the CAP topics in current use since January 2009 are:
  • Suicide prevention.	 	                        • Medication management.
  • Contracted/agency registered nurses.          • 	 Emergency/urgent care operations.
  •	 Quality management.	                         • Survey of healthcare experiences of
                                                    patients.
  • Environment of care.
                                                  • Physician privileges.
  • Coordination of care.

When ﬁndings warrant more global attention, summary or “roll up” reports are prepared at
the conclusion of a topic’s use.


                                                                                              9
Semiannual Report to Congress                            October 1, 2008 — March 31, 2009


OFFICE OF AUDIT
OIG audits of VA programs focus on the effectiveness of health care delivery for Veterans.
These audits identify opportunities for enhancing management of program operations and
provide VA with constructive recommendations to improve health care delivery.
VHA Needs To Reduce Unused Appointments
An OIG audit requested by Senator Daniel Akaka, Chairman, Senate Committee on
Veterans’ Affairs, determined that VHA needs to make improvements to minimize the
number of unused outpatient appointments. VHA lacks an effective method to track and
report unused appointments, particularly those canceled in advance and those never
ﬁlled by a scheduler. VHA also needs to implement effective processes to reduce patient
“no-shows,” which cost VHA about $564 million annually. Also, VHA needs to establish
procedures to ensure that staff contact patients on wait lists when a canceled appointment
becomes available. Minimizing the number of unused outpatient appointments by
two-thirds could enable Veterans to receive more timely patient care, and allow VHA to
make better use of resources valued at about $76 million annually and $380 million over a
5-year period.
Use of “Non Count” Clinics Results in Inaccurate Waiting Times
Chairman Akaka also requested that OIG review allegations that the leadership of the
North Florida/South Georgia Veterans HCS was manipulating their patient waiting list.
Although OIG did not ﬁnd evidence of willful manipulation, OIG determined that the
practice of using “non count” clinics (i.e., clinics where patients are not counted) impairs
the ability of VHA to assess waiting times accurately by understating new patients’ actual
waiting time.
Audit Reveals Safety, Security, Privacy Problems in Domiciliary Program
An OIG audit found that VHA needs to establish national procedures for the inspection
of Veterans’ rooms to prevent substance abuse and the misuse of controlled substances.
Further initiatives need to be taken to ensure the safety, security, and privacy of all
Veteran residents, but particularly female Veterans. Lastly, improvements are needed in
the annual reporting and follow-up processes. OIG determined that implementation of the
draft VHA Mental Health Residential Rehabilitation Treatment Programs Handbook, as well
as planned assessments at all domiciliaries in FY 2009 would result in improved safety,
security, and privacy for residents.

OFFICE OF INVESTIGATIONS
The OIG Ofﬁce of Investigations (OI) conducts criminal investigations into allegations
of patient abuse, drug diversion, theft of VA pharmaceuticals or medical equipment,
false claims for health care beneﬁts, and other frauds relating to the delivery of health
care to millions of Veterans. In the area of health care delivery, OIG opened 196 cases,
made 115 arrests, and obtained over $2 million in ﬁnes, restitution, penalties, and civil
judgments as well as savings, efﬁciencies, cost avoidance, and recoveries.
Former Albany, New York, Oncology Chief Sentenced
The former Chief of Oncology at the Albany, NY, VAMC was sentenced to 5 years’ probation
and ordered to make restitution of $502,925 jointly with another individual who was
previously sentenced in this case. An OIG investigation revealed that the former chief
wrongfully and unlawfully failed to establish and maintain adequate and accurate case
histories in connection with clinical trials and studies being conducted at the VAMC. His
failures allowed Veterans to be placed into studies he was supervising for which they
would otherwise be ineligible to participate and, because of his supervisory failures, his
research coordinator was able to alter medical records of 62 VA patients to make it appear,
in some cases, as though they were qualiﬁed to participate in cancer research. At least
one Veteran patient died as a result of the altered records being used, as the Veteran was
subjected to treatment with chemotherapy agents he ultimately could not have tolerated
had his true laboratory results been reviewed. The research coordinator was previously
sentenced to serve 71 months’ incarceration.




10
October 1, 2008 — March 31, 2009 	                           VA Ofﬁce of Inspector General


Drug Diversion
During this reporting period, OIG opened 54 investigations regarding diversion of
controlled substances. Subjects of these investigations included VA employees, Veterans,
and private citizens. Thirty defendants were charged with various crimes relating to drug
diversion. Among them were the following:
   • 	 A former Salt Lake City, UT, VAMC contract nurse was arrested for theft and
       possession of a controlled substance with intent to distribute. An OIG and local law
       enforcement investigation revealed that the defendant obtained morphine by falsely
       claiming to have administered it to Veterans.
  • 	 A San Antonio, TX, VAMC physician’s assistant was indicted for receiving controlled
      substances through prescription fraud. An OIG investigation revealed that the
      defendant used the name and Drug Enforcement Agency (DEA) registration number
      of a VAMC physician to set up a fraudulent physician’s proﬁle in the database of a
      local retail pharmacy. The defendant, purporting to be the physician, then used the
      proﬁle to phone in multiple prescriptions and reﬁlls for controlled substances, each
      time listing himself as the patient. The employee resigned from the VAMC as a result
      of this investigation.

Veteran Sentenced for Overdose Death of Sailor
A Veteran was sentenced to 30 months’ incarceration and 3 years’ probation after pleading
guilty to distributing Percocet, Codeine, Xanax, and Fentanyl, which were provided to
the defendant by a VAMC. An OIG, Naval Criminal Investigative Service, and local police
investigation revealed that a 25-year-old sailor bought some of the drugs from the
defendant while on leave in Michigan during the 2005 Labor Day holiday. When the sailor
returned to duty in Florida, he ingested the substances and died of a drug overdose.
Defendant Pleads Guilty to Pharmaceuticals Theft at Hines, Illinois, VAMC
A co-conspirator involved in a scheme to steal VA pharmaceuticals pled guilty to
misbranding of drugs. An OIG investigation determined that the defendant was involved
with two other subjects in a conspiracy to steal drugs estimated at $250,000 from the
Hines, IL, VAMC pharmacy and resell them at a retail pharmacy. The primary conspirator,
a former VA pharmacist, was previously sentenced in this case.
Veterans Arrested for Drug Distribution in Mathews County, Virginia
Eight Veterans and their associates were indicted and subsequently arrested for
distributing prescribed narcotics obtained from the Richmond, VA, VAMC to include
Oxycontin, Oxycodone, Percocet, and Xanax. An OIG and state police task force
investigation revealed that the Veterans were selling their VA prescribed narcotics and
having their associates distribute the narcotics throughout the Mathews County, VA,
community.
Big Spring, Texas, VAMC Pharmacy Technician Indicted for Drug Theft
A Big Spring, TX, VAMC pharmacy technician was indicted for acquiring a controlled
substance by fraud and using the U.S. Mail to unlawfully distribute controlled substances.
An OIG and VA Police investigation determined that the defendant, who worked as a
prescription reﬁll telephone operator, used the pharmacy proﬁles of unsuspecting Veterans
to steal prescription narcotics by mailing the prescriptions to himself or family members’
residences.
San Antonio VAMC Employee Indicted for Narcotics Fraud
A San Antonio, TX, VAMC administrative employee was arrested after being indicted for
obtaining prescription narcotics by fraud. A joint OIG and VA Police investigation revealed
that between April 2007 and July 2008 the employee fraudulently used the names and
DEA numbers of various VA doctors and physician assistants to forge written prescriptions
for controlled substances, which he then obtained or attempted to obtain from a local
pharmacy.
Physician Impersonator Sentenced
A defendant was sentenced to 12 months and 1 day of incarceration, 3 years’ probation,
and ordered to pay restitution of $42,758 to two female victims after pleading guilty
to making a false statement and wire fraud. An OIG investigation determined that the
defendant, a known con artist, applied for a position as a surgeon at the Fort Wayne, IN,

                                                                                          11
Semiannual Report to Congress 	                          October 1, 2008 — March 31, 2009


VAMC and represented himself in a resume and a personal interview as a military ofﬁcer
and surgeon with extensive educational and professional experience. Attempts by VA
to verify his credentials proved them false. After his arrest, the defendant admitted to
providing false statements and engaging in an online scheme to gain the conﬁdence of
female victims and then attempt to defraud them.
False Claims for Health Beneﬁts
During this reporting period, OIG initiated 14 investigations regarding fraudulent receipt
of health beneﬁts. Among the 10 defendants charged with this type of crime were the
following:
   • 	 A Veteran who was not eligible for VA health care beneﬁts was indicted for identity
       theft and theft after a joint OIG and VA Police investigation revealed that the
       defendant used the identity of another Veteran to fraudulently receive VA health
       care. The investigation determined that on ﬁve occasions at two different Chicago,
       IL, VAMCs, the defendant fraudulently received medical treatment, counseling, and
       medication. The loss to VA is $50,923.
     • 	 A non-Veteran defendant was sentenced to 27 months’ incarceration, 36 months’
         probation, and ordered to pay restitution of $75,597. An OIG investigation
         determined that the defendant fraudulently received VA pension and health care
         beneﬁts after falsely claiming that he was a former Marine with combat service in
         Vietnam. The defendant was able to collect VA beneﬁts because his military service
         was erroneously conﬁrmed by the National Archives and Records Administration.

Former Bedford VAMC Employees Charged with Theft from Veterans
Two former Bedford, MA, VAMC employees and another subject were indicted for
conspiracy, identity fraud, and access device fraud. An OIG, U.S. Secret Service, and
VA Police investigation revealed that the two former employees stole checks, credit card
numbers, and bank account numbers from several disabled Veterans who resided at the
VAMC. The three defendants then used these items and information to purchase goods
and services over the telephone and Internet.
Former West Los Angeles VAMC Employee Sentenced for Theft
A former West Los Angeles, CA, VAMC employee was sentenced to 3 years’ probation,
45 days’ community service, and ordered to pay restitution of $7,465 after pleading
no-contest to elder abuse. A joint OIG and VA Police investigation determined that the
defendant stole funds from ﬁve elderly and disabled Veterans who were patients at the VA
nursing home.
Former Martinsburg, West Virginia, VAMC Nursing Assistant Arrested for
Theft
A former Martinsburg, WV, VAMC nursing assistant was indicted and subsequently arrested
for identity theft and unauthorized use of an access device. An OIG and VA Police
investigation revealed that the defendant used debit cards belonging to two inpatients to
obtain money, goods, and services totaling approximately $50,000.
Former VAMC Nurse Sentenced for Workers’ Compensation Fraud
A former Columbia, SC, VAMC nurse was sentenced to 5 years’ probation and was
ordered to pay restitution of $68,763 after pleading guilty to having committed fraud
to obtain Federal workers’ compensation. A joint OIG and Department of Labor (DOL)
OIG investigation determined that, after leaving the VAMC on a work-related injury, the
employee failed to notify DOL that she had obtained employment as a nurse in another
state while continuing to receive workers’ compensation beneﬁts.
Former Atlanta VAMC Employee Convicted of Fraud and Conﬂict of
Interest
A former Atlanta, GA, VAMC employee was convicted at trial of mail fraud, criminal conﬂict
of interest, and obstruction of justice. A co-defendant was sentenced to 13 months’
incarceration, 3 years’ probation and ordered to pay restitution of $20,200 after pleading
guilty to mail fraud. An OIG investigation revealed that the defendants proﬁted from a
scheme to receive payments from ﬁduciaries by providing housing to Veterans suffering
from mental illness and substance abuse disorders. The VAMC employee resigned her
position during the investigation.

12
October 1, 2008 — March 31, 2009                           VA Ofﬁce of Inspector General


Abuse of Authority and Preferential Treatment at a VAMC in Augusta,
Georgia
OIG determined that a VAMC director improperly applied a Title 38 hiring authority,
violating Federal law and VA policy in order to make a non-competitive appointment.
OIG determined that the director chose this course of action against the advice of the
medical center’s Human Resources personnel, and in doing so displayed a preference for
one favored person while denying others the opportunity to apply and compete for the
position. OIG recommended that appropriate administrative action be taken against the
director and that the improper appointment be redressed.
Atlanta VAMC Employee Sentenced for Assaulting VA Police Ofﬁcer
An Atlanta, GA, VAMC employee was sentenced to 3 years’ incarceration and 7 years’
probation after being convicted at trial of obstruction, ﬂeeing or attempting to elude a
police ofﬁcer, and other charges. An OIG and VA Police investigation determined that the
employee struck and injured a VA police ofﬁcer with her vehicle when she was stopped for
expired tags. The employee also hit a vehicle and the ofﬁcer’s bicycle while evading VA
Police and ﬂeeing the VAMC property.




                                                                                         13
Semiannual Report to Congress                            October 1, 2008 — March 31, 2009



                             Beneﬁts Processing
Many Veterans, especially returning OEF/OIF Veterans, need a variety of beneﬁts and
services in order to transition to civilian life. OIG works to improve the delivery of these
beneﬁts and services by identifying opportunities to improve the quality, timeliness, and
accuracy of beneﬁts processing. In addition, OIG reduces criminal activity in the delivery
of beneﬁts through proactive and targeted audit and investigative efforts.

OFFICE OF AUDIT
OIG performs audits of Veterans’ beneﬁts programs focusing on the effectiveness
of beneﬁts delivery to Veterans, dependents, and survivors. These audits identify
opportunities for enhancing the management of program operations and provide VA with
constructive recommendations to improve the delivery of beneﬁts.
Audit Finds Deﬁciencies with Beneﬁts Quality Assurance Program
OIG audited the VBA Systematic Technical Accuracy Review (STAR) process, a quality
assurance program that is a key mechanism for evaluating VA Regional Ofﬁce (VARO)
performance in processing accurate beneﬁt claims for Veterans and beneﬁciaries. OIG
determined that VBA’s STAR process did not effectively identify and report errors in
compensation claim rating decisions. Also, VBA has not fully implemented plans to
conduct consistency reviews to ensure that Veterans claiming similar conditions receive
the same rating decision and beneﬁts, regardless of which VARO completed the review.
Without an effective quality assurance program, VBA cannot adequately monitor
performance to make necessary program improvements and ensure Veterans receive
accurate and consistent ratings.
Inaccurate Beneﬁt Claim Receipt Dates Did Not Impact Veterans’
Beneﬁts
OIG conducted a review to evaluate the accuracy of VARO C&P beneﬁt claim receipt
dates after a VBA investigation concluded that VARO New York had intentionally
reported inaccurate claim receipt dates. OIG found that the four VAROs reviewed in
Albuquerque, Boston, San Diego, and Winston-Salem did not have high rates of inaccurate
dates. Further, except for one intentional inaccuracy, inaccurate dates were most likely
unintentional. The inaccurate dates did not cause any Veterans to receive incorrect or
delayed beneﬁts, nor did they signiﬁcantly affect most of the reported FY 2008 average
claim-processing times. OIG determined that establishing goals for receipt date accuracy
and strengthening controls would improve accuracy and documentation and provide
greater assurance of reliable claim-processing times.

OFFICE OF INVESTIGATIONS
VA administers a number of ﬁnancial beneﬁts programs for eligible Veterans and certain
family members. Among the beneﬁts are VA guaranteed home loans, education,
insurance, and monetary beneﬁts provided by the C&P Service. With respect to VA
guaranteed loans, OI conducts investigations of loan origination fraud, equity skimming,
and criminal conduct related to management of foreclosed loans or properties.

C&P investigations routinely concentrate on payments being made to ineligible individuals.
For example, a beneﬁciary may feign a medical disability to deliberately defraud the VA
compensation program. The VA pension program, which is based on the beneﬁciary’s
income, is often defrauded by individuals who fail to report income in order to stay below
the eligibility threshold for these beneﬁts. An ongoing proactive income veriﬁcation match
identiﬁes possible fraud in the pension program. OI also conducts an ongoing death
match project that identiﬁes deceased beneﬁciaries of the VA C&P program whose beneﬁts
continue because VA was not notiﬁed of the death. In this reporting period, the death
match project recovered $3.4 million, with another $1.3 million in anticipated recoveries.
Generally, family members of the deceased are responsible for this type of fraud. In the
area of beneﬁts processing, OIG opened 258 cases, made 98 arrests, and had almost $20
million in ﬁnes, restitution, penalties, and civil judgments as well as savings, efﬁciencies,
cost avoidance, and recoveries.


14
October 1, 2008 — March 31, 2009 	                           VA Ofﬁce of Inspector General


Louisville VARO Employee and Thirteen Others Indicted for Conspiracy
Fourteen defendants, including a former Louisville, KY, VA senior Veteran’s service
representative and a former Disabled American Veterans (DAV) national service ofﬁcer,
were indicted for conspiring to defraud VA, bribery of a public ofﬁcial, and additional
charges. The DAV employee was also charged with stealing over $47,000 in contributions
made payable to the DAV. An OIG and Federal Bureau of Investigation (FBI) investigation
revealed that the former VA employee and former DAV employee recruited friends,
family members, and other acquaintances to submit fraudulent VA disability claims,
supported with counterfeit or altered medical documentation. The former VA employee
and the former DAV employee received kickbacks from the Veterans’ monthly retroactive
checks, most of which were in excess of $2,700 each. The loss to VA is approximately
$1.9 million.
VA Monetary Beneﬁts Fraud
During this reporting period, the OIG opened 173 monetary beneﬁts fraud investigations.
Among the 51 defendants charged with these offenses were the following:
  • 	 The daughter-in-law of a deceased VA widow beneﬁciary pled guilty to a criminal
      information charging her with theft of Government funds. An OIG investigation
      determined that between May 1996 and September 2007 the defendant received,
      forged, and negotiated VA beneﬁt checks that were issued after her mother-in-law’s
      death. The loss to VA is $185,720.
  • 	 The son of a deceased VA beneﬁciary was sentenced to 1 year home conﬁnement,
      5 years’ probation, and ordered to pay restitution of $105,964 to VA and $43,847 to
      the Social Security Administration (SSA) after pleading guilty to theft of Government
      funds. An OIG and SSA OIG investigation determined that between November 1994
      and February 2005 the defendant stole $135,004 in VA beneﬁts and $96,228 in
      Social Security beneﬁts that were deposited by VA and SSA in his deceased mother’s
      bank account.
  • 	 The daughter of a deceased Dependency and Indemnity Compensation (DIC)
      beneﬁciary was sentenced to 5 years’ probation and ordered to pay VA $156,736 in
      restitution after an OIG investigation determined that for over 10 years she stole VA
      funds that were issued after her mother’s death.
  • 	 The sister of a disabled Veteran, who was also his appointed ﬁduciary, pled guilty
      to conversion of money of the United States and income tax violations. She was
      sentenced to 2 years’ probation and ordered to pay restitution of $54,319 to the
      Veteran and $23,495 to the Internal Revenue Service (IRS) after a joint OIG, Social
      Security OIG, and IRS Criminal Investigations Division investigation determined that
      the defendant misappropriated VA funds intended for her brother.
  • 	 A Veteran was convicted of submitting false documents and submitting false claims to
      VA as the result of an OIG investigation that revealed that he fraudulently obtained
      VA beneﬁts. To support his VA claim the defendant obtained medical records from a
      hospital in Hawaii and altered them to make it appear that he had been treated for a
      heart attack in 1974. The loss to VA is $265,963.
  • 	 A Veteran was sentenced to 6 months’ home detention, 5 years’ probation, and
      ordered to pay $187,130 in restitution after pleading guilty to making false
      statements. An OIG and SSA OIG investigation revealed that the defendant
      fraudulently received VA unemployability and Social Security disability beneﬁts
      and ﬁled a fraudulent application for a VA specially adapted housing grant. The
      investigation discovered various contractors who had employed the Veteran and
      ﬁnancial documents showing his frequent business activity. Also, evidence was
      obtained showing the Veteran walking with a severe limp and using a cane only for
      his VA medical appointments.
  • 	 A non-Veteran defendant was sentenced to 3 years’ probation and ordered to pay
      restitution of $136,902 after pleading guilty to making false statements. An OIG
      investigation determined that the defendant obtained the DD-214 of a Veteran with
      an identical name and used it to obtain compensation beneﬁts for PTSD and medical
      beneﬁts, while also claiming prisoner of war status.


                                                                                          15
Semiannual Report to Congress 	                             October 1, 2008 — March 31, 2009


     • 	 A Veteran was sentenced to 6 months’ incarceration and ordered to pay VA
         $198,048 in restitution after being convicted of making false statements to a Federal
         ofﬁcer. The Veteran, whose ﬁrst wife died while they were both on active duty,
         was previously convicted of DIC fraud in 1989 when he failed to notify VA that he
         had remarried 1 year after his ﬁrst wife’s death. In that case, the Veteran paid VA
         $41,320 in court-ordered restitution. A second and more recent OIG investigation
         revealed that although the Veteran divorced his second wife in 1989, they continued
         to live together as husband and wife, which made the defendant ineligible for further
         DIC beneﬁts. During this time period and while on active duty, the defendant also
         reported to the U.S. Navy that he was still married in order to receive military
         dependency beneﬁts for his second wife.
     • 	 A Veteran pled guilty to theft of Government funds after an OIG investigation
         determined that he fraudulently received VA pension beneﬁts as a result of failing to
         report his marriage and self employment income to VA. The loss to VA is $94,176.
     • 	 A Veteran was sentenced to 366 days’ incarceration and 3 years’ probation for
         making false statements, theft, and wearing unauthorized military medals after an
         OIG investigation determined that the Veteran testiﬁed in a murder for hire case, as
         the hired hit man, and used his altered military history to bolster his credibility. The
         Veteran fraudulently received VA beneﬁts by altering and forging various military
         records, to include his DD-214. The Veteran claimed to have been wounded in
         combat and to having earned several medals of valor, to include the Purple Heart and
         Silver Star. The loss to VA is $95,088.




16
October 1, 2008 — March 31, 2009                              VA Ofﬁce of Inspector General



                          Financial Management
 

VA needs to provide all its components with accurate, reliable, and timely information for
sound oversight and decision making. Since 1999, VA has achieved unqualiﬁed (“clean”)
audit opinions on its consolidated ﬁnancial statements (CFS). OIG audits and reviews
identify areas in which VA can improve ﬁnancial management controls, data validity, and
debt management.

OFFICE OF AUDIT
OIG performs audits of ﬁnancial management operations, focusing on adequacy of VA
ﬁnancial management systems in providing managers information needed to efﬁciently
and effectively manage and safeguard VA assets and resources. OIG oversight work
satisﬁes the Chief Financial Ofﬁcer Act of 1990, P.L. 101-576, audit requirements for
Federal ﬁnancial statements and provides timely, independent, and constructive reviews of
ﬁnancial information, programs, and activities. OIG reports provide VA with constructive
recommendations needed to improve ﬁnancial management and reporting throughout VA.
VA Receives Unqualiﬁed Opinion on CFS
OIG contracted with the independent public accounting ﬁrm, Deloitte & Touche LLP
(Deloitte), to perform the audit of VA’s FY 2008 and 2007 CFS. Deloitte provided an
unqualiﬁed opinion on those statements and reported three material weaknesses,
all of which are repeat conditions from the prior year’s audit. They are (1) ﬁnancial
management system functionality, (2) information technology security controls,
and      (3) ﬁnancial management oversight. VA corrected a fourth material weakness,
retention of computer generated detail records in the Beneﬁts Delivery Network system
that Deloitte reported last year. Deloitte reported that VA is not in substantial compliance
with the Federal Financial Management Improvement Act (FFMIA) of 1996 because VA
did not substantially comply with Federal ﬁnancial management systems requirements.
Management identiﬁed, and Deloitte included in their report, an Antideﬁciency Act
violation. The violation was reported by the Secretary to the President of the United
States and Director of the Ofﬁce of Management and Budget in 2008 related to activity in
FY 2007.

OFFICE OF INVESTIGATIONS
OIG conducts criminal and administrative investigations related to allegations of serious
misconduct with regard to VA ﬁnancial management. These investigations often indicate
weaknesses and ﬂaws in VA ﬁnancial management.
Providence VAMC Employee Indicted for Embezzlement
An agent cashier at the Providence, RI, VAMC was indicted for embezzling money of
the U.S. A joint OIG, FBI, and VA Police investigation revealed that the cashier initially
reported that an armed individual robbed the agent cashier’s ofﬁce. While being
interviewed the cashier recanted his story and admitted that he had stolen the cash,
checks, and other items. A search of the cashier’s vehicle and residence resulted in the
recovery of the stolen funds and documents.
Former Philadelphia VAMC Union Ofﬁcials Sentenced for Embezzlement
A joint OIG and DOL Ofﬁce of Labor Management Standards investigation revealed that
the former president and the former treasurer of an American Federation of Government
Employees local union embezzled union money from the Philadelphia VAMC local. The
former president was sentenced to 18 months’ incarceration, 36 months’ probation,
and ﬁned $3,000. The former treasurer was sentenced to 12 months and 1 day of
incarceration and 24 months’ probation. Both defendants were also sentenced to pay total
restitution of $184,130.
Former Albuquerque VAMC Employee Indicted for Fraud
A former Albuquerque, NM, VAMC employee, who was the local union president, was
indicted for wire fraud. A joint OIG and DOL investigation disclosed that the defendant
utilized union debit and credit cards intended for ofﬁcial business to pay for personal
expenses. The loss to the union is $84,627.


                                                                                             17
Semiannual Report to Congress                         October 1, 2008 — March 31, 2009


Former Chicago VAMC Employee Arrested for Theft
A former Chicago, IL, VAMC employee was arrested for felony theft after an OIG
investigation revealed that the former employee used her Government-issued purchase
card to pay for repairs to her personal automobile, while disguising the purchases to
appear as if they were for a Government vehicle. Additionally, the defendant admitted to
using the Government purchase card to pay her personal cell phone and residential phone
service bills. The loss to VA is $23,768.




18
October 1, 2008 — March 31, 2009                                VA Ofﬁce of Inspector General



                           Procurement Practices
 

VA spends over $15 billion annually for pharmaceuticals, medical and surgical supplies,
prosthetic devices, information technology (IT), construction, and services. OIG
contract audits focus on compliance with Federal and VA acquisition regulations and cost
efﬁciencies, which result in recommendations for improvement. Preaward and postaward
contract reviews have resulted in $96.4 million in monetary beneﬁts during this reporting
period.

OFFICE OF INVESTIGATIONS
OIG investigates allegations of bribery and kickbacks, bid rigging and antitrust violations,
false claims submitted by contractors, and other fraud relating to VA procurement
activities. In the area of procurement practices, OIG opened four cases and had
$5.2 million in ﬁnes, restitution, penalties, and civil judgments as well as savings,
efﬁciencies, cost avoidance, and recoveries.
Criminal Information Filed Against Former CMOP Associate Director, Wife
A criminal information was ﬁled against the former associate director of the Hines, IL,
Consolidated Mail Outpatient Pharmacy (CMOP), his wife, and her stafﬁng company
charging them with conspiracy to commit wire fraud. The director of the facility previously
pled guilty to conspiracy and the acceptance of illegal gratuities. An OIG investigation
determined that the director, associate director, and his wife conspired to provide
temporary pharmacists to the CMOP at a higher pay rate than employees were previously
paid. The stafﬁng company was created by the associate director in 2000 to provide
pharmacists to the Hines Outpatient Pharmacy. The company later sought Small Business
Administration certiﬁcation as a woman-owned, minority-owned small disadvantaged
business and 8(a) Program participant. The associate director was also charged with wire
fraud for making materially false misrepresentations to VA and other Government ofﬁcials.
The defendant falsely claimed that the company was solely managed by his wife in order
to avoid conﬂict of interest laws governing Federal employees. Between 2000 and 2007,
the defendants and other unindicted co-conspirators used the company to bill VA for more
than $8 million in services.
Former Pharmaceuticals Sales Representative Found Guilty Of Conspiracy
A former pharmaceutical company sales representative was found guilty of conspiracy
to introduce or deliver for introduction into interstate commerce a drug that was
misbranded after promoting the off-label use of Xyrem. The drug is intended to treat a
muscular symptom found in narcoleptic patients; however, in 2002, the company went
on an aggressive off-label marketing project to promote its use for other conditions and
symptoms. Additionally, the company pled guilty to felony misbranding and introduction
of a misbranded drug into interstate commerce with the intent to defraud or mislead,
in connection with its illegal promotion of the drug. The company was ordered to pay
$20 million in civil and criminal penalties. VA will receive $187,460 of the total settlement.
The conviction was a result of a 4-year OIG, FBI, and Food and Drug Administration
investigation.
Transcription Service Settles Civil Suit with Government
The largest medical transcription service provider in the U.S. agreed to pay $6.6 million
to resolve civil liabilities in connection with their billing practices with the Government. A
joint investigation disclosed that since 1998, the company provided medical transcription
services to several Federal government clients, including VA, the Department of
Defense, and the Public Health Service and billed more for their services than they were
contractually permitted. Of the total $6.6 million settlement, approximately $4.2 million
related to VA contracts.
Former Fresno Employee and Two Others Plead Guilty in Bribery Case
A former Fresno, CA, VA employee pled guilty to bribery after an OIG investigation
determined that the former employee, in his capacity as a contracting ofﬁcer’s technical
representative, colluded with the owners of two construction companies to submit
inﬂated change orders in return for kickback payments. The owners each pled guilty to
illegally supplementing the salary of a Federal employee. The former VA employee also


                                                                                             19
Semiannual Report to Congress                           October 1, 2008 — March 31, 2009


received cash payments from the owners of the companies in return for certifying payroll
submittals, progress payments, and the awarding of future contracts. This bribery scheme
impacted three VAMC construction projects worth nearly $3.5 million.

OFFICE OF CONTRACT REVIEW
The Ofﬁce of Contract Review (OCR) operates under a reimbursable agreement with 

VA’s Ofﬁce of Acquisition, Logistics and Construction (OALC) to provide preaward, 

postaward, and other requested reviews of vendors’ proposals and contracts. In addition, 

OCR provides advisory services to OALC contracting activities. OCR completed 46 reviews 

in this reporting period. The tables that follow provide an overview of OCR performance 

during this reporting period.
 

Preaward Reviews
Preaward reviews provide information to assist VA contracting ofﬁcers in negotiating fair
and reasonable contract prices and ensuring price reasonableness during the term of the
contract. Preaward reviews identiﬁed $65.3 million in potential cost savings during this
reporting period. In addition to Federal Supply Schedule proposals, preaward reviews
during this reporting period included 19 health care provider proposals—accounting
for almost $15 million of the identiﬁed potential savings. Reports resolved through
negotiations by contracting ofﬁcers continue to sustain a high percentage of recommended
savings. For 27 reports, the sustained savings rate was 50 percent.


                                                           October 1, 2008 —
                                                            March 31, 2009
         Preaward Reports Issued                                    31

           Potential Cost Savings                             $65,338,316


Postaward Reviews
Postaward reviews ensure vendors’ compliance with contract terms and conditions,
including compliance with the Veterans Health Care Act of 1992, P.L. 102-585, for
pharmaceutical products. OCR reviews resulted in VA recovering contract overcharges
totaling over $31 million, including $561,309 related to Veterans Health Care Act
compliance with pricing requirements, recalculation of Federal ceiling prices, and
appropriate classiﬁcation of pharmaceutical products. Postaward reviews continue to play
a critical role in the success of VA’s voluntary disclosure process. Of the 15 postaward
reviews performed, 10 involved voluntary disclosures. In 3 of the 10 reviews, OCR
identiﬁed additional funds due.


                                                           October 1, 2008 —
                                                            March 31, 2009
         Postaward Reports Issued                                   15

              Dollar Recoveries                               $31,012,987



COUNSELOR TO THE INSPECTOR GENERAL
Tuscaloosa, Alabama, VAMC in Violation of Federal Acquisition
Regulations
As a result of a complaint ﬁled with the OIG Hotline, a review was initiated of procurement
practices of the Human Resources Management Services (HRMS) department at the
Tuscaloosa, AL, VAMC. OIG found that HRMS violated the Federal Acquisition Regulation
(FAR) when it identiﬁed and arranged for the hiring of two retired VA employees to
provide services to the VAMC through an expedited procurement request. OIG found that


20
October 1, 2008 — March 31, 2009                               VA Ofﬁce of Inspector General


the purchasing agent who completed the request was not aware of the FAR provisions.
Moreover, the purchasing agent’s actions may have been due in part to inconsistencies
between the purchasing agent’s performance plan to complete special requests within
3 workdays and with the requirement to comply with the FAR.
Acquisition Rules Not Followed at the Central Alabama Veterans HCS
OIG substantiated that the Central Alabama Veterans HCS failed to comply with the FAR
when taking action to procure the services of two retired VA employees. OIG made four
recommendations to improve procurement practices within Veterans Integrated Service
Network (VISN) 7. OIG also noted that the ﬁndings and conclusions in this report mirror
those in a prior OIG report pertaining to contracting irregularities at the Tuscaloosa, AL,
VAMC, which suggests that problems relating to the procurement of services are more
widespread within VISN 7 than previously realized.
Title 38 Fee-Basis Violations Committed at Portland, Oregon, VAMC
OIG substantiated allegations that the Portland, OR, VAMC inappropriately approved and
managed fee-basis appointments. The Portland VAMC failed to comply with VA policy
when it not only paid retired nurses on a fee-basis instead of a time-basis, but also paid
the retired nurses in excess of the amount approved in the fee-basis agreements. The
Portland VAMC also violated VA policy by failing to obtain a waiver from the facility director
in some cases when it agreed to pay fees to the retired nurses in excess of the annual
$15,000 limitation. Lastly, the VAMC neglected to reduce the retired nurses’ fees by the
amount of their corresponding retirement annuities.




                                                                                           21
Semiannual Report to Congress 	                            October 1, 2008 — March 31, 2009



                          Information Management
 

OIG oversight work in the IT area reﬂects the critical role IT plays in all VA operations, and
includes audits, criminal investigations, and reviews of IT security policies and procedures.
The loss of signiﬁcant amounts of VA data in May 2006 and January 2007 have highlighted
challenges facing VA information security. VA continues to show increased awareness of
IT security concerns and has completed some efforts aimed at improvement. OIG has
particularly noted VA’s commitment to centralizing IT functions, funding, and staff under
the direction of the VA’s Chief Information Ofﬁcer. Serious problems remain, however, and
OIG will continue close oversight of extensive VA IT activity.

OFFICE OF AUDIT
OIG performs audits of information management operations and policies, focusing on
adequacy of VA IT security policies and procedures for managing and safeguarding
VA program integrity and patient information security. OIG oversight in IT includes
meeting its statutory requirement to review VA’s compliance with the Federal Information
Security Management Act of 2002 (FISMA), P.L. 107-347, as well as IT security reviews
conducted as part of the CFS audit. These reviews have led OIG to report information
security and security of data and data systems as a major management challenge for VA.
OIG’s audit reports present constructive recommendations needed for VA to improve its IT
management and security.
Federal Information Security Management Act Compliance
OIG contracted with Deloitte to perform the audit of VA’s compliance with FISMA. VA
continues to face signiﬁcant challenges in complying with the requirements of FISMA due
to the developing nature of its information security program. In order to achieve the
FISMA objectives, VA needs to focus on several key areas:
   • 	 Remediating the signiﬁcant number of unresolved Plans of Action and Milestones
       in the near term, while focusing efforts on addressing high-risk system security
       deﬁciencies and vulnerabilities.
     • 	 Ensuring that the VA’s password complexity standards are enforced on all major 

         application and general support systems across the enterprise.

     • 	 Identifying and remediating system security weaknesses on VA’s network
         infrastructure, database platforms, and web application servers across the enterprise.
     • 	 Reviewing user accounts to identify and eliminate incompatible system functions,
         system permissions in excess of required functional responsibilities, and unauthorized
         system user accounts.
     • 	 Reviewing security violations and system audit logs on VA’s ﬁnancial management
         systems.
     • 	 Ensuring that system contingency plans are fully tested and documented in 

         accordance with VA policy.
 


OFFICE OF INVESTIGATIONS
OI investigates theft of IT equipment or data, network intrusions, identity theft, and child
pornography. In the area of information management crimes, OIG opened ﬁve cases,
made two arrests, and has $442,010 in ﬁnes, restitution, penalties, and civil judgments as
well as savings, efﬁciencies, cost avoidance, and recoveries.
Subject Arrested for Theft of Computers at Decatur, Georgia, VA Facility
A subject was arrested for burglary and theft at a Decatur, GA, VA outpatient clinic
following an OIG, VA Police, and local police investigation. The defendant was charged
with burglarizing the clinic on two separate occasions and stealing two VA computers
and accessories. No personal or conﬁdential data was stored on any of the computers.
Subsequent to the defendant’s arrest, additional warrants were issued by other police
agencies for other burglaries committed throughout the metropolitan Atlanta area.



22
October 1, 2008 — March 31, 2009 	                             VA Ofﬁce of Inspector General



                   Other Signiﬁcant OIG Activities
 


CONGRESSIONAL TESTIMONY
 

AIGs for Auditing and Investigations Testify on Claims Mishandling and
Document Tampering
On March 3, 2009, Assistant Inspector General (AIG) for Auditing Belinda Finn and AIG for
Investigations James O’Neill testiﬁed at a joint hearing of the U.S. House Veterans’ Affairs
Subcommittees on Disability Assistance & Memorial Affairs and Oversight & Investigations
regarding mishandling and tampering of documents at VAROs. Testimony covered how
and what OIG discovered regarding document shredding during an audit of claims-related
mail processing; the response from VA and VBA management upon the discovery; OIG’s
criminal investigations at seven VAROs; and mail amnesty periods held at some VAROs
to encourage employees to turn in unprocessed mail without penalty. Other testimony
included OIG’s audit ﬁndings that inaccurate claim receipt dates were likely unintentional.
OIG Ofﬁcials Testify Before House Appropriations Subcommittee on
Challenges Facing VA
On March 12, 2009, AIG for Healthcare Inspections John Daigh, MD; AIG for Auditing
Belinda Finn; and Counselor to the Inspector General Maureen Regan testiﬁed before
the U.S. House of Representatives Subcommittee on Military Construction, Veterans
Affairs, and Related Agencies, regarding challenges facing VA in the areas of mental
health treatment, quality management, medical research, claims processing, information
technology, and procurement. Other issues raised during the hearing were VA’s progress
on implementing Post 9/11 GI Bill and community based out-patient clinics.
OIG Physician Testiﬁes on Recovery from Traumatic Brain Injury Before
the Social Security Administration
Jerome E. Herbers, Jr., M.D., testiﬁed at a November 18, 2008, hearing before the SSA
Commissioner. The topic of the hearing was to discuss the results of an OIG OHI study
conducted on 52 service members who had suffered a traumatic brain injury (TBI) in order
to evaluate their recovery progress. Dr. Herbers emphasized the short- and long-term
challenges faced by patients with severe TBI and their families.

OTHER VA EMPLOYEE-RELATED INVESTIGATIONS
Calverton, New York, Cemetery Worker Arrested for Compensation Fraud
A Calverton, NY, National Cemetery mechanic was arrested for workers’ compensation
fraud after an OIG investigation revealed that the employee, who ﬁled a workers’
compensation claim for an on-the-job injury that occurred in 2006, was working as a
mechanic at an auto body shop. The defendant refused to return to VA employment
in any capacity and subsequently earned in excess of $10,000 from the unreported
employment. At the time of the arrest, the defendant had been paid approximately
$86,000 in workers’ compensation.
Threats Made Against VA Employees
During this reporting period, the OIG opened 24 criminal investigations resulting from
threats made against VA facilities and employees. Among the 11 defendants charged with
making threats were the following:
   • 	 The co-owner of a residential facility in Jackson, MS, was convicted of exploitation of
       a vulnerable adult after an OIG and State investigation revealed that the co-owner
       and her husband failed to provide adequate living conditions and medical care
       for Veterans and others residents. In addition, the co-owner and her husband
       embezzled both VA and Social Security beneﬁt funds from the Veterans. All the
       residents of the facility, including Veterans, were relocated to other care homes in the
       local area after the facility was ordered closed by State authorities.
  • 	 A Veteran was arrested by OIG and local law enforcement after mailing threatening
      correspondence to the Baton Rouge, LA, VAMC Outpatient Clinic. The Veteran



                                                                                            23
Semiannual Report to Congress 	                             October 1, 2008 — March 31, 2009


       threatened various actions if his VA compensation beneﬁts were not increased
       within a speciﬁc time frame. The Veteran referred to ways of causing signiﬁcant
       catastrophes, including blowing up Federal buildings. In 2007 the Veteran was
       arrested by OIG for making similar threats to VA. The Veteran is being held pending
       extradition to Louisiana.
     • 	 A Veteran was indicted after an OIG investigation revealed that the Veteran made
         several telephone calls to a VA facility and a U.S. Senator’s ofﬁce threatening
         to commit multiple acts of violence, to include blowing up a VA facility and also
         threatening to kill a VA ﬁduciary.

Fugitive Felons Arrested with Assistance of OIG
Veterans and VA employees continue to be identiﬁed and apprehended as a direct result
of the OIG Fugitive Felon Program. To date, 28.3 million felon warrants have been
received from the National Crime Information Center and participating states resulting in
45,099 investigative leads being referred to law enforcement agencies. Over 1,946
fugitives have been apprehended as a direct result of these leads. Since the inception of
the program in 2002, OIG has identiﬁed $630.1 million in estimated overpayments with an
estimated cost avoidance of $714.7 million. Among the 64 fugitive felon program arrests
made by OIG, VA police, U.S. Marshals, and local police during this reporting period were
the following:
   • 	 Two Veterans, previously convicted of sex offenses involving children, had violated
       conditions of their probation.
     • 	 Another Veteran indicted for pandering obscenity involving a minor and illegal use of
         a minor in nudity-oriented material was arrested by OIG and FBI agents after ﬂeeing
         to another state.
     • 	 A Veteran wanted on a parole violation based on a previous conviction for armed
         robbery was arrested by local police with assistance of OIG agents.
Additionally, 12 VAMC employees were arrested at various medical centers with the
assistance of OIG and VA Police. The employees were wanted on charges to include parole
and probation violations, aggravated assault, weapon offenses, and drug violations.

EXTERNAL RECOGNITION
President’s Council on Integrity & Efﬁciency 2008 Awards
     • 	 Investigation Award for Excellence, Awarded to the Unapproved Drug Distribution
         Investigation Team in recognition of signiﬁcant contributions that resulted in
         the successful prosecution of Bryan Corporation for the sale and distribution of
         unapproved drugs: Dan Bonda, Chris Fiesel, Sara Hawkins, Sean Smith, Jean
         Zanewski.
     • 	 Audit Award for Excellence, Awarded to the Veterans Health Administration
         Outpatient Waiting Times Audit Team in recognition of signiﬁcant contributions to
         enhance patient scheduling and enable Veteran patients to receive timely health care
         at VA outpatient clinics: Robin Frazier, Joseph Janasz, Brad Lewis, Daniel Morris, Dao
         Pham, Carla Reid, Larry Reinkemeyer, Lynn Scheffner, Jason Schuenemann, Marcia
         Schumacher, Oscar Williams.
     • 	 Evaluations Award for Excellence, Awarded to the VA Medical Center Marion, Illinois,
         Quality of Care Issues Evaluation Team in recognition of signiﬁcant contributions by
         VA OIG in the review of a high mortality rate at the VA Medical Center in Marion,
         IL, leading to improvements across VA facilities in quality management, hiring and
         screening of physicians, and patient safety: Andrea C. Buck, Shirley Carlile, Patricia
         Christ, Limin X. Clegg, Debra Crawford, Linda Delong, Dorothy Duncan, Scott J.
         Eastman, Jerome E. Herbers, Ashley Y. Ketchum, Jennifer Kubiak, Alan S. Levine,
         Robert E. Oshel, Reba Ransom, Jennifer Reed, James Seitz, Virginia Solana, Marilyn
         Stones, Carol Torczon, Brian Tullis, George B. Wesley.




24
October 1, 2008 — March 31, 2009 	                            VA Ofﬁce of Inspector General


U.S. Attorney’s Ofﬁce Law Enforcement Public Service Award
  • 	 Special Agents Paul Powis and James O’Neill, in recognition of their beneﬁts fraud
      investigation that resulted in the successful prosecution of the son and wife of a
      Veteran missing for over 15 years who continued to receive the Veteran’s VA beneﬁts.

Federal Law Enforcement Ofﬁcers Association 2008 National Award for
Heroism
  • 	 Special Agent David Spilker, in recognition of his involvement in a shoot-out with a
      suspect who was a convicted murder and cop-killer in Chester, PA, as a member of
      the U.S. Marshals Service Violent Crime Task Force.




                                                                                             25
           Semiannual Report to Congress                           October 1, 2008 — March 31, 2009



                                                APPENDIX A

                               DEPARTMENT OF VETERANS AFFAIRS
 

                                 OFFICE OF INSPECTOR GENERAL
 

                                            REPORTS
 

  Report                                                       Funds Recommended for
 Number/                         Report Title                        Better Use      Questioned
Issue Date                                                                             Costs
                                                                  OIG     Management

COMBINED ASSESSMENT PROGRAM REVIEWS
 

10/16/2008        Combined Assessment Program Review of
07-03175-09       the Northampton VA Medical Center Leeds,
                  Massachusetts

10/17/2008        Combined Assessment Program Review of
08-00003-10       the Jesse Brown VA Medical Center Chicago,
                  Illinois

10/21/2008        Combined Assessment Program Review
08-01428-11       of the Wilmington VA Medical Center
                  Wilmington, Delaware

10/29/2008        Combined Assessment Program Review
08-00402-16       of the Minneapolis VA Medical Center
                  Minneapolis, Minnesota

11/03/2008        Combined Assessment Program Review of
07-03176-17       the Togus VA Medical Center Augusta, Maine

12/02/2008        Combined Assessment Program Review of
08-01331-32       the West Palm Beach VA Medical Center
                  West Palm Beach, Florida

12/03/2008        Combined Assessment Program Review of
08-02413-34       the Cheyenne VA Medical Center Cheyenne,
                  Wyoming

12/11/2008        Combined Assessment Program Review of
08-02643-42       the Veterans Health Care System of the
                  Ozarks, Fayetteville, Arkansas

12/15/2008        Combined Assessment Program Review of
08-02445-44       the San Francisco VA Medical Center San
                  Francisco, California

12/30/2008        Combined Assessment Program Review of
08-02559-50       the White River Junction VA Medical Center
                  White River Junction, Vermont

01/13/2009        Combined Assessment Program Review
08-02871-52       of the VA Pittsburgh Healthcare System
                  Pittsburgh, Pennsylvania




Appendix      •   26
October 1, 2008 — March 31, 2009                            VA Ofﬁce of Inspector General


  Report                                                    Funds Recommended for
 Number/                      Report Title                        Better Use      Questioned
Issue Date                                                                          Costs
                                                               OIG     Management

01/23/2009     Combined Assessment Program Review of
08-03085-57    the VA San Diego Healthcare System San
               Diego, California
02/03/2009     Combined Assessment Program Review of
08-02597-63    the VA Central Iowa Health Care System Des
               Moines, Iowa

02/04/2009     Combined Assessment Program Review of
08-03042-65    the Central Arkansas Veterans Healthcare
               System Little Rock, Arkansas

02/05/2009     Combined Assessment Program Review
08-02986-67    of the Northern Arizona VA Health Care
               System Prescott, Arizona

02/17/2009     Combined Assessment Program Review
08-01447-68    of the Fayetteville VA Medical Center
               Fayetteville, North Carolina

02/19/2009     Combined Assessment Program Review of
08-03043-70    the West Texas VA Health Care System, Big
               Spring, Texas

02/19/2009     Combined Assessment Program Review of
08-03275-71    the Lebanon VA Medical Center Lebanon,
               Pennsylvania

02/24/2009     Combined Assessment Program Review of
08-02561-75    the Edith Nourse Rogers Memorial Veterans
               Hospital Bedford, Massachusetts

02/25/2009     Combined Assessment Program Review
08-01332-76    of the Birmingham VA Medical Center
               Birmingham, Alabama

03/03/2009     Combined Assessment Program Review
08-02414-82    of the Robert J. Dole VA Medical Center
               Wichita, Kansas

03/10/2009     Combined Assessment Program Review of
08-01446-93    the Tennessee Valley Healthcare System
               Nashville, Tennessee

03/16/2009     Combined Assessment Program Review of
09-00517-97    VA Butler Healthcare Butler, Pennsylvania

03/24/2009     Combined Assessment Program Review
08-02600-100   of the William S. Middleton Memorial
               Veterans Hospital Madison, Wisconsin

03/31/2009     Combined Assessment Program Review
08-03074-101   of the Lexington VA Medical Center
               Lexington, Kentucky



                                                                                  Appendix   •   27
           Semiannual Report to Congress                               October 1, 2008 — March 31, 2009


  Report                                                           Funds Recommended for
 Number/                          Report Title                           Better Use      Questioned
Issue Date                                                                                 Costs
                                                                      OIG     Management

HEALTHCARE INSPECTIONS
 

10/06/2008        Healthcare Inspection Quality of Care
08-01362-03       Issues at a VA Healthcare System

10/16/2008        Healthcare Inspection Allegations of
08-01863-08       Delayed Access to Care and Lack of
                  Concern, Bay Pines VA Healthcare System,
                  Bay Pines, Florida
11/06/2008        Healthcare Inspection Quality of Care,
08-01825-20       South Texas Veterans Health Care System,
                  San Antonio, Texas

11/12/2008        Healthcare Inspection Questionable Cause
08-02620-22       of Death VA Puget Sound Health Care
                  System Seattle, Washington

11/18/2008        Healthcare Inspection Allegations
08-02317-26       Regarding the Homeless Women Veterans
                  Program VA Medical Center Atlanta,
                  Georgia
12/02/2008        Healthcare Inspection Gastroenterology
08-01711-31       Service Issues at the VA Southern Nevada
                  Healthcare System Las Vegas, Nevada

12/03/2008        Healthcare Inspection Alleged Neglect by a
08-02335-33       Social Worker Charles George VA Medical
                  Center Asheville, North Carolina

12/08/2008        Healthcare Inspection Review of Hospice
08-01634-38       Care Issues VA Maryland Health Care
                  System Baltimore, Maryland

12/08/2008        Healthcare Inspection Oversight of the
08-02526-39       Community Nursing Home Program
                  Oklahoma City VA Medical Center
                  Oklahoma City, Oklahoma
12/18/2008        Healthcare Inspection Credentialing,
08-02888-48       Privileging, and Infection Control Practices,
                  VA Western New York Healthcare System
                  Buffalo, New York
12/29/2008        Healthcare Inspection, Abdominal Aortic
07-00348-49       Aneurysm Management in VA Medical
                  Facilities

01/13/2009        Healthcare Inspection Quality of Care
08-01850-54       Issues, North Florida/South Georgia
                  Veterans Health System Lake City, Florida

01/28/2009        Healthcare Inspection Allegations of Mental
08-02089-59       Health Diagnosis Irregularities at the Olin E.
                  Teague VA Medical Center Temple, Texas



Appendix      •   28
October 1, 2008 — March 31, 2009                               VA Ofﬁce of Inspector General


  Report                                                       Funds Recommended for
 Number/                      Report Title                           Better Use      Questioned
Issue Date                                                                             Costs
                                                                  OIG     Management

02/02/2009     Healthcare Inspection Mammography,
08-01866-62    Cardiology, and Colonoscopy Management
               Jack C. Montgomery VA Medical Center
               Muskogee, Oklahoma
02/27/2009     Healthcare Inspection Review of the
08-03007-80    Veterans Health Administration’s Use of
               Appropriated Funds for Research

03/04/2009     Healthcare Inspection Alleged Continuity of
08-03039-83    Care Issues and Questionable Death Salt
               Lake City VA Medical Center Salt Lake City,
               Utah
03/05/2009     Healthcare Inspection Certiﬁed Registered
08-03128-85    Nurse Anesthetist Practicing with a Lapsed
               Certiﬁcation WJB Dorn VA Medical Center
               Columbia, South Carolina
03/31/2009     Healthcare Inspection, Access to VA Mental
08-00069-102   Health Care for Montana Veterans


INTERNAL AUDITS
 

10/09/2008     Audit of the Veterans Health Administration’s
08-01030-05    Domiciliary Safety, Security, and Privacy

11/17/2008     Audit of VA’s Consolidated Financial
08-00870-24    Statements for Fiscal Years 2008 and 2007

12/04/2008     Review of Alleged Manipulation of Waiting
08-03327-35    Times, North Florida/South Georgia
               Veterans Health System

12/04/2008     Audit of Veterans Health Administration’s       $380,000,000   $380,000,000
08-00879-36    Efforts to Reduce Unused Outpatient
               Appointments

02/26/2009     Fiscal Year 2008 Federal Information
08-01076-74    Security Management Act Assessment

02/27/2009     Review of VA Regional Ofﬁce Compensation
09-00189-81    and Pension Beneﬁt Claim Receipt Dates

03/12/2009     Audit of Veterans Beneﬁts Administration
08-02073-96    Compensation Rating Accuracy and
               Consistency Reviews


OTHER OFFICE OF AUDIT REVIEWS
 

03/06/2009     Independent Review of VA’s Fiscal Year
09-00863-87    2008 Detailed Accounting Submission to
               the Ofﬁce of National Drug Control Policy


                                                                                    Appendix   •   29
           Semiannual Report to Congress 	                       October 1, 2008 — March 31, 2009


  Report 	                                                   Funds Recommended for
 Number/                       Report Title 	                      Better Use      Questioned
Issue Date                                                                           Costs
                                                                OIG     Management

03/06/2009 	  Independent Review of VA’s Fiscal Year
09-00864-88 	 2008 Performance Summary Report to the
              Ofﬁce of National Drug Control Policy

ADMINISTRATIVE INVESTIGATION
12/17/2008 	    Administrative Investigation Abuse of
08-01596-45 	   Authority and Preferential Treatment,
                Charlie Norwood VA Medical Center,
                Augusta, Georgia

COUNSELOR TO THE INSPECTOR GENERAL SPECIAL REPORTS

10/06/2008      Review of Allegations of Contracting
08-02110-02     Irregularities, VA Medical Center,
                Tuscaloosa, Alabama

02/02/2009      Review of Allegations of Mismanagement,
08-01866-61     Central Alabama Veterans Health Care
                System

03/04/2009      Review of Allegations of Mismanagement
08-02512-84     of Fee-basis Appointments VA Medical
                Center Portland, Oregon


OFFICE OF CONTRACT REVIEW PREAWARD REVIEWS
 

10/01/2008      Review of Proposed Contract Extension         $2,147,043
07-00210-01     Submitted by Valleylab, a Division of Tyco
                Healthcare, for Federal Supply Schedule
                Contract Number V797P-4181a
10/14/2008      Review of Proposal Submitted by Reckitt
08-02915-06     Benckiser Inc. Under Solicitation Number
                M5-Q50A-03-R2

10/14/2008      Review of Proposal Submitted by IU              $133,631
08-02816-19     University of Illinois-Chicago, Under
                Solicitation Number VA-69D-08-RP-0322,
                for Pathology Services to the Jesse Brown
                VA Medical Center
10/21/2008      Review of Proposal Submitted by Columbia       $543,246
08-03022-12     Heart Clinic, PA, Under Solicitation
                Number VA-247-08-RP-0132 for Cardiology
                Services to WJB Dorn VA Medical Center in
                Columbia, South Carolina
10/21/2008      Review of Proposal Submitted by the           $3,362,195
08-02968-13     University of South Carolina Under
                Solicitation Number RFP VA-247-08-RP-
                0087 for Ophthalmology Services for WJB
                Dorn VA Medical Center in Columbia, South
                Carolina




Appendix   •    30
October 1, 2008 — March 31, 2009                           VA Ofﬁce of Inspector General


  Report                                                   Funds Recommended for
 Number/                     Report Title                        Better Use      Questioned
Issue Date                                                                         Costs
                                                              OIG     Management

10/22/2008    Review of Proposal Submitted by IU Health       $1,304,112
08-02914-14   Care Associates, Inc., Under Solicitation
              Number VA-251-08-RP-0196, for Pathology
              Services to Richard L. Roudebush VAMC
10/28/2008    Review of Proposal Submitted by IU               $591,931
08-02902-15   Health Care Associates, Inc., Under
              Solicitation Number VA-251-07-RP-0125,
              for Cardiologist Services at Richard L.
              Roudebush VAMC
11/05/2008    Review of Proposal Submitted by IU                   $506
08-02913-21   Health Care Associates, Inc., Under
              Solicitation Number VA-251-08-RP-0130,
              for Otolaryngology Services to Richard L.
              Roudebush VAMC
11/06/2008    Review of Proposal Submitted by University     $2,159,445      $2,159,445
08-03194-23   of New Mexico Health Sciences Center
              Under Solicitation Number RFP VA-258-
              08-RP-0083 for Radiology Services at
              New Mexico VA Health Care System,
              Albuquerque, New Mexico
11/18/2008    Review of Contract Extension Proposal           $1,135,538
08-01949-25   Submitted by Zoll Medical Corporation for
              Federal Supply Schedule Contract Number
              V797P-4549a
11/18/2008    Review of Proposal Submitted by                 $2,887,146
08-03091-27   Interventional Associates of Memphis,
              Under Solicitation Number VA-249-08-RP-
              0072, for Angio/Interventional Radiology
              Services to VA Medical Center, Memphis,
              Tennessee
11/24/2008    Review of Federal Supply Schedule Proposal
08-02798-29   Submitted by Bayer Healthcare LLC, Under
              Solicitation Number M5-Q52A-04-R1

12/04/2008    Review of Proposal Submitted by Emory            $374,865
09-00095-30   University Under Solicitation Number
              247-09-RP-005 for Oncology Services at VA
              Medical Center Atlanta
12/08/2008    Review of Proposal Submitted by University       $507,571
09-00152-40   of Alabama, Under Solicitation Number
              VA 247-08-RP-082b, for Cardiothoracic
              Anesthesia Services to VA Medical Center,
              Birmingham, Alabama
12/09/2008    Pre-extension Review of Federal Supply        $36,815,795
08-02635-41   Schedule Proposal Submitted by KCI USA,
              Inc. Under Contract Number V797P-4443a




                                                                                 Appendix   •   31
           Semiannual Report to Congress                          October 1, 2008 — March 31, 2009


  Report                                                      Funds Recommended for
 Number/                      Report Title                          Better Use      Questioned
Issue Date                                                                            Costs
                                                                 OIG     Management

12/11/2008     Review of Proposal Submitted by The                 $9,068
09-00288-43    Curators of the University of Missouri on
               behalf of Missouri Rehabilitation Center,
               Under Solicitation Number VA-256-08-RP-
               0159, for Ancillary Medical Services at the
               Gene Taylor Community Based Outpatient
               Clinic, Mount Vernon, Missouri
12/17/2008     Review of Proposal Submitted by Toshiba
09-00097-47    America Medical Systems, Inc. Under
               Solicitation Numbers M6-Q8-06 & SPO200-
               06-R8005
12/19/2008     Review of Proposal Submitted by Denver           $219,723
09-00436-46    Health and Hospitals Authority, Under
               Solicitation Number VA 259-08-RP-0045

01/07/2009     Review of Proposal Submitted by
08-03313-51    Cephalon, Inc. Under Solicitation Number
               M5-Q50A-03-R2

01/12/2009     Review of Proposal Submitted by Virginia        $1,022,043
08-02537-53    Commonwealth University Health System
               Under Solicitation Number VA-246-07-RP-
               0029 for Heart Transplant Services to the
               VA Medical Center in Richmond, Virginia
01/22/2009     Review of Proposal Submitted by Siemens         $6,726,524
09-00143-56    Medical Solutions USA, Inc. Under
               Solicitation Numbers M6-Q8-06 & SPO200-
               06-R8005
01/23/2009     Review of Federal Supply Schedule Proposal      $2,020,930
08-02827-55    Submitted by Genentech USA, Inc. Under
               Solicitation Number M5-Q50A-03-R2

01/29/2009     Review of Proposal Submitted by University         $81,288
09-00619-64    of Alabama at Birmingham Under
               Solicitation Number VA-247-08-RP-0282,
               for Professional Radiology Services to
               Birmingham VA Medical Center
02/04/2009     Review of Proposal Submitted by Virginia          $949,547
08-02534-66    Commonwealth University Health System
               Under Solicitation Number VA-246-07-RP-
               0030 for Artiﬁcial Heart Implant Services to
               the VA Medical Center in Richmond, Virginia
02/18/2009     Review of Proposal Submitted by the               $498,160
09-00918-73    University of Illinois at Chicago, Under
               Solicitation Number VA-69D-08-RP-0618
               for Interventional Radiology Services at the
               Jesse Brown VA Medical Center
02/19/2009     Review of Federal Supply Schedule Proposal
09-00070-69    Submitted by UDL Laboratories Under
               Solicitation Number M5-Q50A-03-R2

Appendix   •   32
October 1, 2008 — March 31, 2009                            VA Ofﬁce of Inspector General


  Report                                                    Funds Recommended for
 Number/                      Report Title                        Better Use      Questioned
Issue Date                                                                          Costs
                                                               OIG     Management

03/05/2009     Review of Proposal Submitted by St. Louis
09-01325-86    College of Pharmacy Under Solicitation
               Number VA-255-08-RQ-0248, for Pharmacy
               Services to the John Cochran Division of
               the St. Louis VA Medical Center
03/06/2009     Review of Cardinal Health’s Contract            $1,015,138
07-03295-90    Extension Request Under Federal Supply
               Schedule Contract Number V797P-5521x

03/09/2009     Review of Proposals Submitted by
09-01068-92    University of Colorado Hospital Authority
               and University Physicians, Inc. Under
               Solicitation Numbers RFP VA-259-09-
               RP-0061 and RFP VA-259-09-RP-062 for
               Radiation Oncology Services for VA Eastern
               Colorado Health Care System, Denver,
               Colorado
03/17/2009     Review of Federal Supply Schedule                $510,448
08-02010-99    Proposal Submitted by Baxter Healthcare
               Corporation Under Solicitation Number
               M5-Q50A-03-R2
03/18/2009     Review of Proposal Submitted by the              $322,423
08-03155-98    University of Iowa, Under Solicitation
               Number VA-263-08-RP-0126 for Casculare
               Surgery Services to VA Medical Center,
               Iowa City, Iowa

OFFICE OF CONTRACT REVIEW POSTAWARD REVIEWS
 

10/01/2008     Review of Mylan Pharmaceuticals, Inc.’s                                      $210,813
08-02711-212   Voluntary Disclosures and Refund Offers,
               Under Federal Supply Schedule Contract
               Number V797P-5891x
10/01/2008     Review of Voluntary Disclosure and Refund                                      $7,106
08-02552-214   Offer Submitted By Buffalo Supply, Inc.,
               for Pricing Errors Under Federal Supply
               Contract V797P-4582a
10/10/2008     Review of Merck/Schering-Plough                                              $410,989
08-01701-04    Pharmaceuticals, Inc.’s Implementation of
               Section 603 Drug Pricing Provisions Under
               Public Law 102-55 and Voluntary Disclosure
               and Refund Offer Under Federal Supply
               Schedule Contract Number V797P-5630x
11/18/2008     Post-Award Review of Pelton and Crane’s                                       $41,098
08-00092-28    Federal Supply Schedule Contract
               V797P-3056m

12/03/2008     Review of Novartis Consumer Health, Inc’s                                    $384,368
08-00555-37    Voluntary Disclosure and Refund Offer
               Under Federal Supply Schedule Contract
               Number V797P-5354x and V797P-5881x

                                                                                 Appendix    •   33
           Semiannual Report to Congress                         October 1, 2008 — March 31, 2009


  Report                                                     Funds Recommended for
 Number/                      Report Title                         Better Use      Questioned
Issue Date                                                                           Costs
                                                                OIG     Management

01/22/2009     Review of Watson Pharma’s Self Audit                                      $324,424
08-01839-58    Under Federal Supply Schedule Contract
               Number V797P-5931x
01/30/2009     Review of Contract Modiﬁcation Number
09-00818-60    0014 Under Schering-Plough Corporation’s
               Federal Supply Schedule Number
               V797P-5777x
02/18/2009     Review of Hospira Worldwide Inc. Voluntary                                $247,303
08-02942-72    Disclosure and Refund Offer of Public Law
               102-585 -- 603 Errors Under Contract
               Number V79P-5396x
02/25/2009     Review of Mayne Pharma Inc.’s Voluntary                                   $127,739
08-02944-77    Disclosure and Refund Offer of Public Law
               102-585 -- 603 Errors Under Contract
               Number V797P-5738x
02/25/2009     Review of Sandoz, Inc.’s Addition of                                          $887
09-00819-79    Covered Drugs Under Federal Supply
               Schedule Contract Number V797P-5894x

02/27/2009     Post-Award Review of TeamStaff                                             $30,423
07-02026-78    Government Solutions, Inc.’s Federal
               Supply Schedule Contract V797P-4348a

03/06/2009     Review of Mylan Pharmaceuticals, Inc.’s                                 $8,362,191
08-02439-91    Voluntary Disclosure of Overpricing, Under
               Federal Supply Schedule Contract Number
               V797P-5891x
03/10/2009     Report of Monetary Recovery Regarding                                  $20,680,373
08-01824-94    Off-Label Use of Zyprexa by Eli Lilly and
               Company

03/12/2009     Review of Dey L.P.’s Compliance with Public                               $150,320
07-02596-89    Law 102-585 (603) Under Federal Supply
               Schedule Contract Number V797P-5658x

03/16/2009     Post-Award Review of Professional Health                                   $34,953
08-03266-95    Care Services Inc.’s Reported Sales and
               Industrial Funding Fees Under Federal
               Supply Schedule Contract V797P-4554a


TOTALS
Reports Issued:
 
                                                                            102
Funds Recommended for Better Use by OIG:
 
                                       $445,338,316
Funds Recommended for Better Use by OIG and Agreed to by
 

                                                                                  $382,159,445
Management:
 

Questioned Costs:
 
                                                                $31,012,987



Appendix   •   34
        October 1, 2008 — March 31, 2009                            VA Ofﬁce of Inspector General



                                            APPENDIX B
                     


       STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR
The Federal Acquisition Streamlining Act of 1994, P.L. 103-355, requires Federal agencies to complete
ﬁnal action on each OIG report recommendation within 12 months after the report is ﬁnalized. OIG
is required to identify unimplemented recommendations in its Semiannual Report to Congress until
the ﬁnal action is completed. This appendix summarizes the status of OIG unimplemented reports
and recommendations. The following chart lists the total number of unimplemented OIG reports
and recommendations by organization. It also provides the total number of unimplemented reports
and recommendations issued over 1 year ago (March 31, 2008, and earlier). The FY 2008 FISMA
audit, which contains unimplemented OIG recommendations from previous years’ FISMA audits, is
included in the total of unimplemented reports and recommendations, but because it was issued after
March 31, 2008, it is not included in the reports that are over 1 year old on the right side of the table.
Some reports are counted more than once because they have actions at more than one ofﬁce. Of the
reports open less than 1 year, one report has actions at two ofﬁces.




                      Unimplemented OIG Reports and Recommendations

      VA                                                                   Issued 3/31/08
                                 Total
     Ofﬁce                                                                    and Earlier

                     Reports           Recommendations              Reports           Recommendations

       VHA              62                    268                      8                      17

       VBA              4                      10                      0                      0

      OI&T1             4                      52                      2                      9

       OM2              1                      3                       0                      0

      OSP3              1                      1                       0                      0


1
    Ofﬁce of Information and Technology (OI&T)
 

2
    Ofﬁce of Management (OM)
 

3
    Ofﬁce of Operations, Security & Preparedness (OSP)
 





                                                                                         Appendix     •      35
            Semiannual Report to Congress                                    October 1, 2008 — March 31, 2009




                                 Reports Unimplemented for Over 1 Year


Report Number     Date of                        Title                      Responsible           Open          Monetary
                   Issue                                                   Organization(s)   Recommendations     Impact

                                   Audit of the Veterans Health
 04-02887-169   07/08/2005     Administration’s Outpatient Scheduling           VHA               5 of 8
                                             Procedures
                               Audit of VA Acquisition Practices for the
 04-02330-212   09/30/2005     National Vietnam Veterans Longitudinal           VHA               1 of 3
                                               Study
                              Review of Access to Care in the Veterans
 05-03028-145   05/17/2006                                                      VHA               2 of 9
                                       Health Administration
                              Review of Issues Related to the Loss of
 06-02238-163   07/11/2006    VA Information Involving the Identity of         OI&T               1 of 6
                                       Millions of Veterans

                                   Audit of the Veterans Health
 07-00616-199 09/10/2007                                                        VHA               4 of 5
                             Administration’s Outpatient Waiting Times


                             Audit of the Acquisition and Management of
 06-03677-221 09/28/2007                                                        VHA               2 of 7       $21,948,162
                                  Selected Surgical Device Implants

                                   Audit of the Veterans Health
 06-00801-30    11/28/2007    Administration’s Home Respiratory Care            VHA               1 of 5
                                              Program

                               Healthcare Inspection, Evaluation of the
 05-00266-39    12/13/2007    Veterans Health Administration’s Contract         VHA               1 of 4
                                 Community Nursing Home Program

                               Audit of Veterans Health Administration
 06-03424-70    02/08/2008                                                     OI&T               8 of 9
                                 Blood Bank Modernization Project

                              Combined Assessment Program Review
 08-00373-99    03/20/2008   of the VA Long Beach Healthcare System,            VHA              1 of 10
                                       Long Beach, California


TOTALS                                                                                             26          $21,948,162



Note: Although the FY 2008 FISMA audit contains 18 unimplemented OIG recommendations from previous
years’ FISMA audits, it is not included in the table above because these recommendations are reviewed
annually in the FISMA audit.




Appendix    •     36
October 1, 2008 — March 31, 2009                               VA Ofﬁce of Inspector General



                                  APPENDIX C
 

    INSPECTOR GENERAL ACT REPORTING REQUIREMENTS
 

The table below cross-references the speciﬁc pages in this Semiannual Report to the
reporting requirements where they are prescribed by the Inspector General Act, as
amended by the Inspector General Act Amendments of 1988, P.L. 100-504, and the
Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208.
The Federal Financial Management Improvement Act of 1996, P.L. 104-208, (FFMIA)
requires OIG to report instances and reasons when VA has not met the intermediate
target dates established in the VA remediation plan to bring VA’s ﬁnancial management
system into substantial compliance with the Act. The audit of VA’s consolidated ﬁnancial
statements for FY 2008 and 2007 reported three material weaknesses, all of which are
repeat conditions from the prior year’s audit. The audit also indicated that VA is not in
substantial compliance with FFMIA because VA did not substantially comply with Federal
ﬁnancial management systems requirements. VA is in the process of revising and
expanding existing remediation plans for the three repeat material weaknesses identiﬁed
in the FY 2008 and 2007 audit.

     IG Act                            Reporting
                                                                              Status
   References                        Requirements
                      Review of legislative, regulatory, and             Commented on
 Section 4 (a) (2)
                      administrative proposals                           312 items
 Section 5 (a) (1)    Signiﬁcant problems, abuses, and deﬁciencies       See pages 7-25

                      Recommendations with respect to signiﬁcant
 Section 5 (a) (2)                                                       See pages 7-25
                      problems, abuses, and deﬁciencies
                      Prior signiﬁcant recommendations on which
 Section 5 (a) (3)                                                       See pages 35-36
                      corrective action has not been completed
                      Matters referred to prosecutive authorities
 Section 5 (a) (4)                                                       See pages 7-25
                      and resulting prosecutions and convictions
                      Summary of instances where information was
 Section 5 (a) (5)                                                       None
                      refused
                      List of reports by subject matter, showing
                      dollar value of questioned costs and
 Section 5 (a) (6)                                                       See pages 26-34
                      recommendations that funds be put to better
                      use
                      Summary of each particularly signiﬁcant
 Section 5 (a) (7)                                                       See pages 7-25
                      report
                      Statistical tables showing number of reports
 Section 5 (a) (8)    and dollar value of questioned costs for           See page 38
                      unresolved, issued, and resolved reports
                      Statistical tables showing number of reports
                      and dollar value of recommendations that
 Section 5 (a) (9)                                                       See page 38
                      funds be put to better use for unresolved,
                      issued, and resolved reports
                      Summary of each audit report issued
                      before this reporting period for which no
 Section 5 (a) (10)                                                      See page 38
                      management decision was made by end of
                      reporting period
 Section 5 (a) (11)   Signiﬁcant revised management decisions            None
                      Signiﬁcant management decisions with which
 Section 5 (a) (12)                                                      None
                      the Inspector General is in disagreement
                      Information described under section 5(b) of        See top of this
 Section 5 (a) (13)
                      FFMIA                                              page

                                                                        Appendix     •     37
Semiannual Report to Congress                       October 1, 2008 — March 31, 2009




Table 1: Resolution Status of Reports with Questioned Costs
                                                                    Dollar Value
                RESOLUTION STATUS                        Number
                                                                    (In Millions)
 No management decision by 09/30/2008                        0                 $0
 Issued during reporting period                              14               $31
   Total inventory this period                               14               $31
 Management decisions during the reporting period
 Disallowed costs (agreed to by management)                  14               $31
 Allowed costs (not agreed to by management)                 0                 $0
   Total management decisions this reporting period          14               $31
   Total carried over to next period                         0                 $0




Table 2: Resolution Status of Reports with Recommended Funds To Be
Put To Better Use By Management
                                                                     Dollar Value
                RESOLUTION STATUS                         Number
                                                                     (In Millions)
 No management decision by 09/30/2008                         0                $0
 Issued during reporting period                               1            $380.0
   Total inventory this period                                1           $380.0
 Management decisions during the reporting period
 Agreed to by management                                      1            $380.0
 Not agreed to by management                                  0                $0
   Total management decisions this reporting period           1           $380.0
   Total carried over to next period                          0               $0




Appendix   •    38
October 1, 2008 — March 31, 2009                             VA Ofﬁce of Inspector General



                                   APPENDIX D
           GOVERNMENT CONTRACTOR AUDIT FINDINGS
The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each
Inspector General appointed under the Inspector General Act of 1978 to submit an
appendix on ﬁnal, completed contract audit reports issued to the contracting activity that
contain signiﬁcant audit ﬁndings—unsupported, questioned, or disallowed costs in an
amount in excess of $10 million, or other signiﬁcant ﬁndings—as part of the Semiannual
Report to Congress. During this reporting period, OIG issued no contract review reports
under this requirement.




                                                                        Appendix    •    39
Copies of this report are available to the public. Written requests should be sent to:

Ofﬁce of the Inspector General (53A)
Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

The report is also available on our website:
http://www.va.gov/oig/publications/semiann/reports.asp
For further information regarding VA OIG, you may call 202-461-4720.




Cover photo courtesy Department of Defense
                                                                     VA OIG Semiannual Report to Congress
Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


                     (CALLER CAN REMAIN ANONYMOUS)



To Telephone:           (800) 488-8244
                        (800) 488-VAIG
To FAX:                 (202) 565-7936

To Send
Correspondence:         Department of Veterans Affairs
                        Inspector General Hotline (53E)
                        P.O. Box 50410
                        Washington, DC 20091-0410

Internet Homepage:      http://www.va.gov/oig/contacts/hotline.asp

E-mail Address:         vaoighotline@va.gov




                                                                     March 31, 2009 - Vol. 61

                        Department of Veterans Affairs
                          Ofﬁce of Inspector General
                        Semiannual Report to Congress

                        October 1, 2008 - March 31, 2009
